SuPReme Court of The Ute STATES
OFFice of ThE Clerk
WASHING TIN » OC, AISYF-9001

Re? ZW RE, ERIC wallace Kohl , PET Trot R
M0. 20-5605

 

ON REN EAR 2NG - For EXTRAOAINARY
WRIT For Aahenrs Cae Pus K€ Wek

 

- keQhves] hoe KeHenran 6-
ERM bhilnce Beal

aa Cove lawe DR.
Colds Pailg , TEXAS. 7733)

Phoe Wo# Celli £3 )-622- OSS!
Phowe Mo # Home? 136- 6SF- FSEAF

RECEIVED
NOV 20 2020

SEER BF THs GER
Role 44 flow) DerwnsTRajed
Kaehl has been DENED By The State pw Feneral Courts ,
For Téxas Any And All LeGal 2WVEsTiGoay Frocess Ts hit Claims
TarT Awe ovISTAnding ExCePTiona) PERT, SuPPuRTeA By AND
Thes6N The STale'cs CeeSitiel Re WkDs 2v Clea Ane Canvine -
ing Vishible demoWsTeal sts of Multiple Orited STATS,
CansT, TT wal RighTs VirilsTiinls AgainsT Keehl Ae AY years

shee Several State ano Fede@nl CAVSE Numbers Ta No-
AVIA

- This CASe 25 NON MRGNS FS y¥ING IN A IWTeevemwé Level

OF CikcumsTances with A GwNTralling EfBot by legal Avlhopitie
ZN TEKAS MisVSiWG Thur fawer To VPhid Mega) Qwviet on
Ano has evolved R other GKovnos PReviovsly wot PResenTodl
an kaehls claims onrgivaliy, SvbsTaANTia) Public ConevpF-
fon zo row &eimG disPlAyed Aro zs Clearly Vissible cH The
BAd)yeaes oF Denials Ta The Claims PResented oF biéil
Volume QnsTiTaa) KiZATe ViolaTiors AgAnsT keehi anv
This CaSe, wow st has Leo Tr "Fedecxal Felrys ” be jy optrly
Comm r Hed AcainsT Koehi by RE Sond eazy.

koe hj) Under Rule YY € Ale sTs Ava AR by’ That

he PAS CRI miy Av KAT anally PResenTed STATe Cee) Fréd Reve n
To This CourT Urore Newly Discovered EVidkense ThAT Shows
Keehis Chawkce Wat legally MT A Felowp bv K Class A-
[1isdememor Arne Keehi zs WT PResanting This € WDEewse
FoR Dejay bvT IN Gasd FAIIN Ty Recreve Jvstice

 

 

KKaeghi
his Ssv@nT FoR (RY) Yen.
Con Bless,

Resrearhily Submr Wed,

ni datince Kouh\
Additional material
from this filing is
available in the

Clerk’s Office.
